                                   Executive Summary


                                   The FDIC’s Shared-Loss Agreements with
                                   BankUnited
                                                                                   Report No. AUD-12-008
                                                                                              March 2012

Why We Did The Audit
On May 21, 2009, the former Office of Thrift Supervision (OTS) closed BankUnited, FSB, Coral Gables,
Florida, and appointed the FDIC as receiver. The FDIC’s Division of Resolutions and Receiverships
(DRR) has been delegated primary responsibility for resolving a failed financial institution and managing
the resulting receivership. To protect depositors, the FDIC entered into a Purchase and Assumption
(P&A) Agreement with BankUnited, Miami Lakes, Florida (BankUnited). The FDIC also entered into
Shared-Loss Agreements (SLA) with BankUnited covering $11.7 billion of the acquired assets.

The FDIC’s Office of Inspector General (OIG) contracted with BDO USA, LLP (BDO) to conduct a
performance audit of the FDIC’s SLAs with BankUnited. The objective of this audit was to assess
BankUnited's compliance with the terms of its SLAs with the FDIC related to BankUnited, FSB assets.


Background
A common resolution method that the FDIC uses for resolving failed institutions is a P&A transaction,
wherein an acquiring institution (AI) purchases some or all of the assets and assumes some or all of the
liabilities of a failed institution. An SLA is a means to facilitate P&A transactions. Under the SLA, the
FDIC agrees to absorb a portion of the loss on a specified pool of assets in order to maximize asset
recoveries and minimize losses. Loss sharing reduces the immediate cash needs of the FDIC, provides
greater operational efficiency for failed bank customers, and facilitates moving assets quickly into the
private sector. Typically, the FDIC absorbs a significant portion (generally, 80 percent) of losses claimed
on the SLA portfolios, and AIs absorb the remaining losses.

BankUnited was formed by a group of private capital investors and was established as a newly chartered
Federal Savings Bank in May 2009. On May 21, 2009, the FDIC and BankUnited entered into a P&A
transaction covering BankUnited’s acquisition of BankUnited, FSB that included two SLAs with
BankUnited covering 46,526 commercial and other loan assets (CSLA) and single-family assets
(SFSLA), consisting of loans, other real estate owned (OREO), and securities totaling approximately
$11.7 billion. In the BankUnited SLAs, the FDIC reimburses 80 percent of losses claimed up to a
threshold of a cumulative loss of $4 billion and 95 percent of losses above $4 billion. As of June 30,
2011, BankUnited had claimed slightly over $2 billion in losses on assets covered by the SLAs. The
FDIC made payments to BankUnited of $1.6 billion (the FDIC’s 80-percent share of the $2 billion in
losses claimed).


Audit Results
BDO concluded that, overall, BankUnited was in compliance with the terms of the SLAs. It was apparent
to BDO that BankUnited had dedicated substantial resources to ensure compliance with the SLAs. For
example, BankUnited had developed policies and procedures to ensure compliance, loan files were well
organized, and employees were knowledgeable about the agreements. Nonetheless, BDO observed that
for early certificates there was a weakness in the controls over the review process for single-family asset
charge-offs. BDO identified one charge-off that was overstated by $501,272 (questioned costs of
$401,017, 80 percent of the overstatement). BDO also noted that the SLAs and DRR guidance did not
specifically address how accrued interest on negatively amortizing loans should be calculated or reflected
in the loss claim and that DRR did not have specific guidance regarding the capitalization of accrued
   Executive Summary
                                     The FDIC’s Shared-Loss Agreements with
                                     BankUnited
                                                                                     Report No. AUD-12-008
                                                                                                March 2012

interest to the unpaid principal balance for negatively amortizing loans. As a result, BankUnited may
have overstated accrued interest by approximately $812 (questioned costs of $650, 80 percent of the
overstatement) and losses claimed by $41,076 (questioned costs of $32,861, 80 percent of the
overstatement). The report also includes an observation related to BankUnited’s compliance with a loan
sale addendum to the SLA and encourages the FDIC to monitor BankUnited’s asset liquidation efforts to
ensure the bank’s goals and investment objectives agree with FDIC SLA program expectations.

In total, BDO identified $434,528 in questioned costs, which the OIG plans to report in the next
Semiannual Report to the Congress.


Corporation Comments

On February 24, 2012, the Director, DRR, provided a written response to the draft of this report.
Management concurred with BDO’s findings and recommendations. DRR’s planned actions are
responsive to BDO’s recommendations.

We also provided BankUnited with a copy of the draft report for its review. In a letter to our office
responding to the report, BankUnited agreed with the first two recommendations. As for recommendation
number 3, regarding negatively amortizing loans, BankUnited considers its methodology to be
appropriate and noted that the application of payments on such loans is a complicated matter and entails
certain legal implications.

Because this report contains sensitive information, we do not intend to make this report available to the
public in its entirety. We will, however, post this Executive Summary on our public Web site.
